FDIC OIG Press Release
UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT OF MISSOURI
CATHERINE L. HANAWAY
United States Attorney
NEWS RELEASE
For further information: Call Public Affairs Officer Jan Diltz at (314) 539-7719
August 30, 2007
For Immediate Release
FORMER PRESIDENT OF CANTON STATE BANK AND HIS WIFE ARE SENTENCED ON MULTIPLE FEDERAL CHARGES INVOLVING FRAUDULENTLY OBTAINED LOANS
St. Louis, Missouri: William Michael (Mike) Huffman was sentenced to 27 months in prison, and Patricia Huffman was sentenced to four months home confinement on fraud charges involving false statements to obtain loans and making a loan to a bank customer, which was for the benefit of Mr. Huffman, United States Attorney Catherine L. Hanaway announced today. William Michael Huffman was ordered to pay restitution of $315,412.58 and Patricia Huffman was ordered to pay restitution of $81,984.86.
As a result of his actions, not only is Mr. Huffman going to prison, he will not work in the banking industry again, said Hanaway.
While William Michael Huffman was President of Canton State Bank, he made a loan of approximately $35,000 to a bank customer who returned this money to Huffman, by means of checks made payable to a minor child of Patricia Huffman. The total amount of the loss sustained by Canton State Bank as a result this and other similar loans was $63,550.
William Michael Huffman submitted a financial statement, dated July 1, 2002, to Canton State Bank, in support of a request for a loan.  He stated on this financial statement that the total amount of his liabilities as of July 1, 2002, was $446,830. In fact, the total amount of his liabilities at that time was approximately $583,675. On September 6, 2002, Canton State Bank entered into three loan agreements with the Huffmans for $280,000, $158,400, and $20,000.
In 2003, William Michael Huffman and Patricia Huffman attempted to obtain a loan in the amount of $95,000 from Farm Service Agency. They stated that their liabilities were $290,277, as of July 8, 2003.  In fact, the total amount of the liabilities was approximately $940,202 on that date. On August 8, 2003, Farm Service Agency lent William Michael Huffman and Patricia Huffman $95,000 based on this false information.
Following are the amounts of losses sustained by financial institutions and Farm Service Agency as a result of loans to William Michael Huffman and Patricia Huffman in which they understated the amount of the liabilities on financial statements and balance sheets which were submitted as part of the applications for these loans:
Canton State Bank (personal loans) - $121,902
Bank of Monticello - $9,367
Perry State Bank - $25,927
Bank of Crocker - $22,048
Farm Service Agency - $95,000
WILLIAM MICHAEL HUFFMAN pled guilty last February to one felony count of making false statements to Farm Service Agency, one felony count of making false statements to a bank and one felony count of bank fraud.  Additionally, as a condition of his plea, Mr. Huffman entered into an agreement with the Federal Deposit Insurance Corporation (FDIC) that prohibits him from further participation in banking.
His wife, PATRICIA HUFFMAN, both formerly of Lebanon, Missouri, also pled guilty in February, to one felony count of making a false statement to Farm Service Agency.  Both appeared before United States District Judge Charles A. Shaw.
Hanaway commended the work performed on the case by the Federal Bureau of Investigation, the FDIC Office of Inspector General, the U.S. Department of Agriculture Office of Inspector General and Assistant United States Attorneys Steven Muchnick and Tom Albus, who handled the case for the U.S. Attorneys Office.
Last updated: 9/6/07